App. 1
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
-----------------------------------------------------------------------

IN RE: KATHRYN MACEWEN CONTI, )
Debtor. )
)
)
KATHRYN MACEWEN CONTI,
)
Appellant, )
)
v.
)
ARROWOOD INDEMNITY COMPANY, )
)
Appellee.
)

No. 20-1172

Appeal from the United States District Court
for the Eastern District of Michigan at Detroit;
No. 2:18-cv-13467—Terrence George Berg,
District Judge.
United States Bankruptcy Court for the
Eastern District of Michigan at Detroit;
2:17-ap-04711; 2:17-bk-48277—Marci B. McIvor, Judge.
Argued:

November 18, 2020

Decided and Filed: December 14, 2020
Before:

COLE, Chief Judge; DONALD and
READLER, Circuit Judges.
-----------------------------------------------------------------------

App. 2
COUNSEL
ARGUED: Austin C. Smith, SMITH LAW GROUP
LLP, New York, New York, for Appellant. Britton C.
Lewis, CARRUTHERS & ROTH, P.A., Greensboro,
North Carolina, for Appellee.
ON BRIEF: Austin C. Smith, SMITH LAW GROUP
LLP, New York, New York, Guy T. Conti, CONTILEGAL, Ann Arbor, Michigan, for Appellant. Britton C.
Lewis, CARRUTHERS & ROTH, P.A., Greensboro,
North Carolina, Paul R. Hage, JAFFE RAITT HEUER
& WEISS, P.C., Southﬁeld, Michigan, for Appellee.
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

COLE, Chief Judge. After ﬁling for Chapter 7
bankruptcy, Kathryn MacEwen Conti commenced an
adversary proceeding against Arrowood Indemnity Co.
seeking to determine that loans she incurred while enrolled at the University of Michigan were not “qualiﬁed
education loan[s]” under 11 U.S.C. § 523(a)(8)(B) and
were thus dischargeable in bankruptcy. The bankruptcy court granted summary judgment to Arrowood,
concluding that the plain language of the loan documents demonstrated they were qualiﬁed education
loans. Because the bankruptcy court’s conclusion was
correct, we affirm its summary judgment in favor of
Arrowood.

App. 3
I.

BACKGROUND

Kathryn MacEwen Conti attended the University
of Michigan (“Michigan”) from 1999 to 2003, obtaining
a bachelor’s degree in musical arts. In order to ﬁnance
three years of her education, Conti applied for ﬁve private loans from Citibank (the “Citibank loans”), totaling $76,049.
Conti’s loan applications are all expressly “[f ]or
students attending 4-year colleges and universities.”
(E.g., Ex. 2, R. 7-2, PageID 2838.) They request information regarding the school’s identity, the academic
year for which the funds are intended, and the amount
of the loan requested. And they specify that the student may “borrow up to the full cost of education less
any ﬁnancial aid [they] are receiving.” (E.g., id. § B.)
The applications include a section where the school ﬁnancial aid ofﬁce can certify the student applicant’s
year, enrollment status, loan amount (not to exceed the
cost of education when combined with other ﬁnancial
aid), and recommended disbursement dates. Each application incorporates by reference an attached promissory note as the “entire agreement” between Citibank
and the debtor. (E.g., id. § F.) The promissory notes
state that “the proceeds of this loan are to be used for
speciﬁc educational expenses.” (E.g., id. at PageID
2834.)
Citibank appears to have disbursed each loan to
Michigan directly. The record discloses that none of
the loan amounts exceeded the cost of attendance at
Michigan for the relevant enrollment period minus the

App. 4
maximum sum of a federal Pell grant for the same period, which is the only other ﬁnancial aid Conti remembers receiving.
For several years from around 2011 to early 2016,
Conti made payments on the Citibank loans, which
were eventually assigned to Arrowood. In May 2017,
Conti ﬁled for voluntary Chapter 7 bankruptcy in the
Eastern District of Michigan. See In re Conti, No. 2:17bk-48277 (Bankr. E.D. Mich. ﬁled May 31, 2017). She
listed the ﬁve Citibank loans as dischargeable, claiming that they were not excepted under 11 U.S.C.
§ 523(a)(8). In October 2017, Conti ﬁled this adversary
proceeding seeking to determine the same. See Conti v.
Arrowood Indemnity Co. (In re Conti), Case No. 2:17ap-04711 (Bankr. E.D. Mich. ﬁled Oct. 10, 2017).
The parties cross-moved for summary judgment.
After a hearing, the bankruptcy court granted summary judgment to Arrowood and denied it to Conti.
(See Summ. J. Hr’g, R. 7-1, PageID 2767, 2812.) On appeal, the district court afﬁrmed. Conti v. Arrowood Indemnity Co., 612 B.R. 877, 878 (E.D. Mich. 2020). Conti
timely appealed to this court.
II.

ANALYSIS

A. Standard of review.
When considering a further appeal of a bankruptcy court decision, we “directly review the decision
of the bankruptcy court rather than the district court’s
review of the bankruptcy court’s decision.” Poss v.

App. 5
Morris (In re Morris), 260 F.3d 654, 662 (6th Cir. 2001).
“[B]ecause a grant of summary judgment presents a
pure question of law,” our court reviews the bankruptcy
court’s grant of summary judgment de novo. Id. at
663. In bankruptcy adversary proceedings “[s]ummary
judgment is appropriate ‘if the movant shows that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.’ ”
Hagan v. Baird (In re B & P Baird Holdings, Inc.), 759
F. App’x 468, 473 (6th Cir. 2019) (quoting Fed. R. Civ. P.
56(a) and citing Fed. R. Bankr. P. 7056). We “must view
all facts and inferences in the light most favorable to
the non-moving party.” Id. at 474 (quoting Hall v.
Spencer Cty., 583 F.3d 930, 933 (6th Cir. 2009)).
B. Merits.
1. Legal framework
This appeal concerns whether Conti’s Citibank
loans are “qualiﬁed education loan[s]” under 11 U.S.C.
§ 523(a)(8)(B) that are non-dischargeable in Chapter 7
bankruptcy (save for “undue hardship” for the debtor,
which Conti does not claim). In any § 523(a) analysis,
“[t]he creditor . . . bears the burden of proving by a preponderance of the evidence that a debt is excepted from
discharge.” Meyers v. IRS (In re Meyers), 196 F.3d 622,
624 (6th Cir. 1999) (citing Grogan v. Garner, 498 U.S.
279, 290–91 (1991)).
Subsection (8)(B) was enacted as part of the Bankruptcy Abuse Prevention and Consumer Protection Act
of 2005, Pub. L. No. 109-8, 119 Stat. 23. It expanded to

App. 6
private student loans § 523(a)(8)’s existing discharge
exception for government- and non-proﬁt-backed educational loans. See 4 Collier on Bankruptcy ¶ 523.14[2]
(Lexis 2020). Subsection (8)(B) deﬁnes qualiﬁed education loans by cross-reference to the tax code, which in
turn deﬁnes them, in relevant part, as: “any indebtedness incurred by the taxpayer solely to pay qualiﬁed
higher education expenses.” 26 U.S.C. § 221(d)(1). That
same section further deﬁnes qualiﬁed higher education expenses, in relevant part, as “the cost of attendance (as deﬁned in section 472 of the Higher Education
Act of 1965, 20 U.S.C. 1087ll . . . ) at an eligible educational institution, reduced by the sum of applicable
scholarships or ﬁnancial aid. § 221(d)(2). Finally, 20
U.S.C. § 1087ll lists a series of expenses that comprise
the “cost of attendance,” including sums for tuition &
fees, room & board, books, materials, supplies, transportation, and “miscellaneous personal expenses” for
enrolled students, in amounts determined by the university. In sum, the issue here is whether Conti’s Citibank loans were “incurred . . . solely to pay” her “cost
of attendance” at Michigan (as determined by the university) minus any applicable scholarships or aid.
Both parties argue that the court should look to
the initial purpose of Conti’s loans, rather than their
actual uses, to determine whether they fall within the
scope of (8)(B). We agree that this is the proper inquiry.
First and foremost, the statutory deﬁnition of qualiﬁed
education loan speciﬁcally focuses on whether the loan
was “incurred . . . to pay” qualiﬁed higher education expenses, rather than on its ultimate uses. See 26 U.S.C.

App. 7
§ 221(d)(1); cf. Murphy v. Smith, 138 S. Ct. 784, 787
(2018) (observing that Congress uses infinitival phrases
to express purpose). Second, concerns that have long
motivated other circuits to adopt a purpose test for “educational loans” under § 523(a)(8)(A) apply with equal
strength for qualiﬁed education loans under subsection (8)(B). See, e.g., Busson-Sokolik v. Milwaukee Sch.
of Eng’g (In re Sokolik), 635 F.3d 261, 266 (7th Cir.
2011) (adopting the purpose test for § 523(a)(8)(A)
loans, following Murphy v. Pennsylvania Higher Education Assistance Agency (In re Murphy), 282 F.3d 868
(5th Cir. 2002)). Most notably, allowing debtors to discharge their student loans simply because they misuse
the funds for non-educational expenses would not further Congress’ goal of preserving the ﬁnancial integrity of the student loan system. See Murphy, 282 F.3d
at 873; see also Andrews Univ. v. Merchant (In re Merchant), 958 F.2d 738, 742 (6th Cir. 1992).
2. Purpose of the Citibank loans
The bankruptcy court correctly concluded that
the sole purpose of the Citibank loans was to pay the
cost of attendance at Michigan minus the maximum
amount of other ﬁnancial aid Conti received.
A loan’s purpose is centrally discerned from the
lender’s agreement with the borrower. Cf. BussonSokolik, 635 F.3d at 266–67. Here, the applications and
promissory notes expressly: tie the loans to Conti’s student status at Michigan for a given enrollment period;
limit the loan amount to the “full cost of education less

App. 8
any ﬁnancial aid you are receiving”; limit use of the
loan to “speciﬁc educational expenses”; and include an
area for Michigan to certify the above information, including that the loan amount in combination with
Conti’s other ﬁnancial aid will not exceed Michigan’s
cost of education. (E.g., Ex. 2, R. 7-2, PageID 2834,
2838.) To the extent we need to look beyond those
documents to determine the loan’s purpose, Citibank
appears to have disbursed the loans to Michigan directly, and the loan amounts did not exceed the cost of
attendance at Michigan minus Conti’s only applicable
scholarships and ﬁnancial aid (one or more Pell
grants). With no contrary evidence in the record, these
facts sufﬁce to establish that Conti incurred the Citibank loans “solely to pay qualiﬁed higher education expenses” at Michigan. See 26 U.S.C. § 221(d)(1).
On appeal, Conti claims that the speciﬁc recipient
of the loan disbursements and the precise cost of attendance and applicable ﬁnancial aid are in dispute, as
are her and Michigan’s status as an “eligible” student
and educational institution. But Conti has forfeited
any dispute as to these facts by failing to raise them
below. See Niecko v. Emro Mktg. Co., 973 F.2d 1296,
1299 (6th Cir. 1992) (“It is well settled law that this
court will not consider an error or issue which could
have been raised below but was not.”). Moreover, Conti
fails to point to any evidence in the record, beyond allegations in her complaint, that creates a dispute regarding these facts. Conti further argues that her
non-receipt of IRS 1098-E forms and Michigan’s failure
to certify three of the ﬁve loans are also disputed

App. 9
material facts. But the only dispute regarding these
facts concerns their legal relevance, and the bankruptcy court correctly concluded they were not material to determining whether Conti’s loans are
dischargeable.
Conti’s other objections to summary judgment for
Arrowood fail as well. Drawing from the tax context,
Conti argues her Citibank loans are not qualiﬁed education loans because she never ﬁled an IRS Form W-9S
expressly certifying that the loans were incurred to
pay “qualiﬁed higher education expenses” and she
never received a Form 1098-E that would follow that
certiﬁcation. Conti reasons that because subsection
(8)(B) deﬁnes qualiﬁed education loans by cross-reference to the tax code, bankruptcy courts should adopt
the same express certiﬁcation requirement that the
IRS established for claiming interest deductions on
private student loans. This argument is not persuasive. Conti offers no authority for the general proposition that importing a deﬁnition from a separate
statutory context should entail importing any attendant regulations as well, let alone any support for
doing so in this speciﬁc context. In fact, the regulations
Conti relies on expressly state that the certiﬁcation requirement has import “for purposes of section 6050S
and this [tax regulation] section,” which have nothing
to do with bankruptcy. 26 C.F.R. § 1.6050S-3(e)(2) (emphasis added). Moreover, it would make little sense
for Congress to except private student loans from discharge if debtors could render the loans dischargeable
simply by failing to ﬁle a certiﬁcation form.

App. 10
Alternatively, Conti argues that a debt is not a
qualiﬁed education loan unless it “very, very speciﬁc[ally]” outlines the various educational expenses
for which it was incurred, citing to our court’s opinion
in Shaffer v. Block, 705 F.2d 805 (6th Cir. 1983). (Oral
Argument at 4:14-28; cf. Appellant Br. at 13–14.)
Shaffer, however, is not a bankruptcy case—rather,
it considered regulations for federal Supplemental
Nutrition Assistance Program (“SNAP”) eligibility. 705
F.2d at 809. The regulation at issue in Shaffer, moreover, expressly required that reimbursements be
“specifically earmarked” for permissible educational
expenses for them not to count as income for the purposes of SNAP eligibility. Id. at 813–14 (quoting 7
C.F.R. § 273.9(c)(5) (1982)). No similar requirement applies here. And Conti offers no other reason why a
“very speciﬁc” enumeration of permissible expenses
should be required for a loan to fall within the scope of
(8)(B).
Finally, we see no reason why the “cost of education” and “speciﬁc educational expenses” referenced in
the Citibank loans indicate anything beyond the university’s “cost of attendance” and its enumerated educational expenses detailed in 20 U.S.C. § 1087ll.
Especially so when the loan amounts fall within the
total cost of attendance, minus any other applicable ﬁnancial aid.
The undisputed evidence in the record thus establishes that Conti incurred the Citibank loans solely to
pay her qualiﬁed higher education expenses at Michigan. See 26 U.S.C. § 221(d)(1)–(2). As such, the loans

App. 11
are qualiﬁed education loans under 11 U.S.C.
§ 523(a)(8)(B).
III.

CONCLUSION

For the foregoing reasons, we afﬁrm the judgment
of the bankruptcy court.

App. 12
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-1172
IN RE: KATHRYN MACEWEN CONTI,
Debtor.
KATHRYN MACEWEN CONTI,
Appellant,
v.
ARROWOOD INDEMNITY COMPANY,
Appellee.
Before:

COLE, Chief Judge; DONALD and
READLER, Circuit Judges.
JUDGMENT
(Filed Dec. 14, 2020)

On Appeal from the United States District Court
for the Eastern District of Michigan at Detroit.
THIS CAUSE was heard on the records from the
district court and the bankruptcy court and was argued by counsel.
IN CONSIDERATION THEREOF, it is ORDERED that the bankruptcy court’s grant of summary

App. 13
judgment in favor of Arrowood Indemnity Company
is AFFIRMED.
ENTERED BY ORDER OF
THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 14
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
2:18-cv-13467
KATHRYN MACEWEN
CONTI,
HON. TERRENCE G. BERG
Appellant,
ORDER AFFIRMING
v.
ARROWOOD
INDEMNITY CO.,

BANKRUPTCY
COURT’S DECISION
(Filed Jan. 21, 2020)

Appellee.
Kathryn MacEwen Conti ﬁled a voluntary Chapter 7 bankruptcy petition in 2017. Conti now appeals
the decision of the United States Bankruptcy Court
for the Eastern District of Michigan ﬁnding that her
student loans are “qualiﬁed educational loans” and
therefore nondischargeable in bankruptcy under 11
U.S.C. § 523(a)(8)(B) of the United States Bankruptcy
Code. Conti asserts that because the loans did not limit
the use of loan proceeds to qualiﬁed higher education
expenses, and she in fact used some of the proceeds
for personal expenses unrelated to her education, the
loans are not properly considered qualiﬁed higher educational expenses and are therefore dischargeable.
Appellant Conti and appellee Arrowood Indemnity
Company, which now owns Conti’s loans, both filed
motions for summary judgment on the question of
whether Conti’s loans are dischargeable under
§ 523(a)(8)(B). The Honorable Marci B. McIvor, United

App. 15
States Bankruptcy Judge, found that the loans were
“qualiﬁed educational loans” and accordingly nondischargeable in bankruptcy. On that basis, Judge McIvor
granted Arrowood Indemnity Company’s motion for
summary judgment, denied Conti’s motion for summary judgment,1 and dismissed Conti’s First Amended
Complaint for Declaratory Relief. For the reasons set
out below, the decision of the bankruptcy court is afﬁrmed.
BACKGROUND
Kathryn MacEwen Conti attended the University
of Michigan from 1999 through 2003, where she earned
a Bachelor of Arts degree in Musical Arts. ECF No. 71, PageID.2785 (Bankr. Ct. Hearing T.). To pay for her
education, Conti borrowed money from Citibank. The
ﬁnancial institution made her ﬁve loans between October 2000 and February 2003 totaling $76,049. Id. at
PageID.2786. Those loans were subsequently assigned
to Discover Bank, to which appellee Arrowood Indemnity Company is a successor-in-interest. Id. at 2788–
89. The total amount Conti borrowed from Citibank
was less than the cost of attendance at the University
of Michigan for each year. Id. at PageID.2787.

1

Arrowood Indemnity Company observes that Conti did not
ﬁle a motion for leave to appeal denial of her motion for summary
judgment, an interlocutory order, pursuant to Rule 8004 of the
Federal Rules of Bankruptcy Procedure. The Court will, however,
treat her notice of appeal as a motion for leave and grant the implied motion consistent with Fed. R. Bankr. P. 8004(d).

App. 16
Conti’s CitiBank loan applications became promissory notes after they were approved by the bank. See
id. at PageID.2787. Each of those applications, which
were signed by Conti, include language stating, “You
may borrow up to the full cost of education less any
ﬁnancial aid you are receiving. Your school will be requested to certify this amount and the ﬁnal approved
loan amount could be less than the amount requested.”
See ECF No. 7-2, PageID.2820, 2826, 2832, 2838 (Promissory Notes). The ﬁve loan applications also avow, “I
understand that the proceeds of this loan, if approved,
must be used for educational purposes and that disbursements will be sent to my school by check or electronic funds transfer.” See ECF No. 7-2 at PageID.2816,
2822, 2828, 2834, 2840. On the same page, the applications acknowledge, “I understand that the proceeds of
this loan are to be used for speciﬁc educational expenses. I grant you a security interest in any refunds
of the proceeds of the loan given to me by my educational institution or any other party.” Id.
When Conti ﬁled her voluntary Chapter 7 bankruptcy petition on May 31, 2017, she scheduled the
debt owed to Arrowood Indemnity Company as general
unsecured debt and asserted on Schedule E/F that
the debt was nondischargeable pursuant to § 523(a)(8).
She subsequently ﬁled an adversary proceeding in
bankruptcy court seeking a determination as to
whether her debt was in fact dischargeable under
§ 523(a)(8). Both she and Arrowood Indemnity Company
ﬁled motions for summary judgment, taking opposing
positions on the question of whether the Citibank

App. 17
loans are qualiﬁed educational loans within the scope
of 11 U.S.C. § 523(a)(8)(B) and therefore nondischargeable. A hearing was held before Bankruptcy Judge
McIvor on October 23, 2018 during which she issued
her ruling on the pending motions for summary judgment from the bench.
STANDARD OF REVIEW
District courts have jurisdiction over appeals from
ﬁnal orders of the bankruptcy court in core proceedings. 28 U.S.C. §§ 157(b)(1), 158(a)(1). The bankruptcy
court’s ﬁndings of facts are reviewed for clear error
while its conclusions of law are reviewed de novo.
Mapother v. Maporther, P.S.C. v. Cooper (In re Downs),
103 F.3d 472, 476-77 (6th Cir. 1996); In re Batie, 995
F.2d 85, 88 (6th Cir. 1993); Fed. R. Bankr. P. 8013.
Where a bankruptcy court’s determination involves a
mixed question of law and fact, the district court
“must break it down into its constituent parts and apply the appropriate standard of review for each part.”
Wesbanco Bank Barnesville v. Rafoth (In re Baker &
Getty Fin. Servs., Inc.), 106 F.3d 1255, 1259 (6th Cir.
1997) (citing Investors Credit Corp. v. Batie (In re Batie),
995 F.2d 85, 88 (6th Cir. 1993)).
Rule 56 of the Federal Rules of Civil Procedure
governs motions for summary judgment in adversary
proceedings in bankruptcy court. See Fed. R. Bankr. P.
7056. Under that rule, summary judgment is appropriate “if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled

App. 18
to judgment as a matter of law.” See Fed. R. Civ. P. 56(a).
On a motion for summary judgment, the Court must
view the evidence and any reasonable inferences
drawn from the evidence in the light most favorable to
the nonmoving party. Matsushita Elec. Indus. Co. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986) (citations
omitted); Redding v. St. Edward, 241 F.3d 530, 531 (6th
Cir. 2001). The Court must then determine whether
the evidence presents a sufﬁcient factual disagreement
to require submission of the challenged claims to the
trier of fact or whether the moving party must prevail
as a matter of law. See Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 252 (1986). Because a grant of summary
judgment presents a pure question of law, district
courts review the bankruptcy court’s grant of summary
judgment de novo, using the same Rule 56 standard as
the bankruptcy court. In re Morris, 260 F.3d 654, 663
(6th Cir. 2001); Williams v. Mehra, 186 F.3d 685, 689
(6th Cir. 1999) (en banc).
DISCUSSION
The heart of this dispute involves determining
whether Conti’s student loan is an “other educational
loan that is a qualified educational loan, as defined
in section 2221(d)(1) of the Internal Revenue Code.” 11
U.S.C. § 523(a)(8)(B). The Court has reviewed the
Bankruptcy Judge’s findings of fact for clear error
and observes no erroneous determinations. The Court
will therefore consider de novo whether summary
judgment in favor of Arrowood Indemnity Company
and against Conti was warranted based on the factual

App. 19
record and applicable governing law.2 Having examined the record, as well as the parties’ briefs and oral
arguments on appeal, the Court is convinced that the
material facts in this case are undisputed. The only
disagreement between the parties stems from their
competing interpretations of statutory law and contract language. Of those competing interpretations, the
Court ﬁnds Arrowood Indemnity Company’s position
that Conti’s loans are indeed “qualiﬁed educational
loans” and therefore nondischargeable in bankruptcy
to be more consistent with applicable governing law.
See 11 U .S.C. § 523(a)(8)(B).
When an individual ﬁles a petition for relief under
Chapter 7 of the Bankruptcy Code, as Conti has done,
her preexisting ﬁnancial obligations are generally discharged to create a clean slate. But Congress created
exceptions to dischargeability that protect certain
categories of education loans from discharge. In re
Homaidan, 596 B.R. 86, 95 (Bankr. E.D.N.Y. 2019); In
re Elebrashy, 189 B.R. 922, 925 (Bankr. N.D. Ohio 1995)
(citing Andrews Univ. v. Merchant (In re Merchnat),
958 F.2d 738, 740 (6th Cir. 1992)). The legislature’s
stated purpose in excluding some education loans from
dischargability is “to preserve the solvency of student
loan programs so that funds will be available for future
students.” In re Rosen, 179 B.R. 925, 938 (Bankr. D. Or.

2

The Court also considers whether the Bankruptcy Judge
should have denied Conti’s motion for summary judgment but
ﬁnds that question involves the same analysis because both motions turn on the question of whether the loans are dischargeable.

App. 20
1995) (citing In re Palmer, 153 B.R. 888, 893 (Bankr.
D.S.D. 1993)).
Accordingly, 11 U.S.C. § 523(a)(8) of the Bankruptcy Code provides that a debtor is generally not discharged from any debt that constitutes:
(A)(i) an educational beneﬁt overpayment or
loan made, insured, or guaranteed by a
governmental unit, or made under any
program funded in whole or in part by a
governmental unit or nonproﬁt institution; or
(ii)

an obligation to repay funds received as
an educational beneﬁt, scholarship, or
stipend; or

(B)

any other educational loan that is a
qualiﬁed educational loan, as deﬁned in
section 2221(d)(1) of the Internal Revenue Code of 1986, incurred by a debtor
who is an individual;

11 U.S.C. § 523(a)(8) (emphasis added).
The Internal Revenue Code deﬁnes “qualiﬁed educational loan” as “any indebtedness incurred by the
taxpayer solely to pay qualiﬁed higher education expenses.” 26 U.S.C. § 221(d)(1) (emphasis added). Conti
contends that the use of the term “solely” in § 221(d)(1)
means that “if the proceeds of the loans . . . could be
used for anything other than qualified higher education expenses—even one thing—the loans are not
qualified loans and may be discharged.” ECF No. 7,
PageID.2747 (Appellant’s Br.). The Court is not

App. 21
convinced by this interpretation of the Internal Revenue Code. The Code further deﬁnes “qualiﬁed higher
education expenses” as “the cost of attendance (as deﬁned in section 472 of the Higher Education Act of
1965, 20 U.S.C. 1087ll, as in effect on the day before the
date of the enactment of the Taxpayer Relief Act of
1997) at an eligible educational institution. . . .” The
Higher Education Act of 1965 in turn expansively describes “cost of attendance” to include the following
expenses, among others:
(1) tuition and fees normally assessed a student carrying the same academic workload as determined by the institution, and
including costs for rental or purchase of
any equipment, materials, or supplies required of all students in the same course
of study;
(2) an allowance for books, supplies, transportation, and miscellaneous personal expenses. . . .
20 U.S.C. §§ 1087ll(1)–(2) (emphasis added). The
phrase “miscellaneous personal expenses” is not deﬁned by any applicable statute or by the promissory
notes themselves.
The crux of Conti’s argument is that her student
loans were not for qualiﬁed higher education expenses
because the loans permitted her to use—and she in
fact did use—a portion of the loan proceeds for personal expenses. But this same argument has previously been considered and rejected by a number of
courts. In In re Jean-Baptiste, for example, the debtor

App. 22
had used a portion of her education loan proceeds for
birthday gifts, shopping, concert tickets, and other
similar expenses. 584 B.R. at 583. The court in that
case emphasized that “the stated purpose and not the
actual use of the loan determines whether a loan is
an ‘educational loan’ excepted from discharge under
§ 523(a)(8).” Id. at 585. This Court agrees that that the
question of whether Conti’s loans are “qualiﬁed educational loans” under § 523(a)(8)(B) should be determined by examining the purpose of the loan, rather
than how the debtor actually spent the loan proceeds.
Focusing on how students spent the proceeds of their
loans to assess whether the loans were educational
loans would of course lead to absurd results. See
Murphy v. Pa. Higher Educ. Assistance Agency (In re
Murphy), 282 F.3d 868, 873 (5th Cir. 2002) (explaining
that “[p]ermitting students to discharge student loans
in bankruptcy because the student spent the money on
social uses” would permit students who abuse the
loans to gain the beneﬁts of discharge while students
who use the loans to finance their education would
retain the burden of paying them). This approach is
frequently referred to as the “substance of the transactions test.” See In re Posner, 434 B.R. 800, 803
(Bankr. E.D. Mich. 2010) (quoting Tift Cty. Hosp. v. Nies
(In re Nies), 334 B.R. 495 (Bankr. D. Mass. 2005)). The
test, which examines “the substance of the transaction
which resulted in the obligation,” involves assessing
the lender’s “primary intent for entering into the loan.”
In re Nies, 334 B.R. at 501, 505. See Busson-Sokolik v.
Milwaukee Sch. of Eng’g (In re Sokolik), 635 F.3d 261,
266 (7th Cir. 2011) (“[W]e hold that it is the purpose of

App. 23
a loan which determines whether it is ‘educational.”).
The Court agrees with the bankruptcy court’s rationale
that there is no reason the substance of the transactions test should not apply to education loans that are
“qualiﬁed educational loans” under § 523(a)(8)(B) just
as it has been found to apply to educational loans
that fall under § 523(a)(8)(A). See ECF No. 7-1,
PageID.2798–2801.
Here, the Court ﬁnds that the undisputed facts
show the ﬁve loans at issue were made for educational
purposes and were predicated on Conti’s status as a
student. The loan applications’ language plainly
demonstrates that Citibank intended the loans to be
for an educational purpose. They each include text
stating, “You may borrow up to the full cost of education less any ﬁnancial aid you are receiving.” ECF No.
7-2, PageID.2820, 2826, 2832, 2838. And, “I understand
that the proceeds of this loan, if approved, must be
used for educational purposes.” ECF No. 7-2 at
PageID.2816, 2822, 2828, 2834, 2840. Additionally, on
each of the applications Conti acknowledges, “I understand that the proceeds of this loan are to be used for
speciﬁc educational expenses.” Id. Conti has not presented any arguments that would permit her to overcome the plain language of her signed loan application
documents, all of which illustrate that Citibank made
the loans to help Conti ﬁnance her education.
The Court declines to speciﬁcally address some of
the more novel arguments advanced by Conti, including those about Chevron deference, ambiguity in the
loan applications’ language, and contracts of adhesion.

App. 24
Those arguments are unpersuasive given the plain language in her loan applications and governing caselaw
on nondischargability of loans under § 523(a)(8). The
undisputed facts show that Arrowood Indemnity Company was entitled to judgment as a matter of law on
the question of whether Conti’s loans are dischargeable in bankruptcy. The Court agrees that each of
Conti’s ﬁve loans are nondischargeable because they
are “qualiﬁed education loans” as contemplated by
§ 523(a)(8)(B). For these reasons, the bankruptcy court
did not err in granting Arrowood Indemnity Company’s motion for summary judgment and denying
Conti’s motion for summary judgment. The decision of
the Bankruptcy Court is hereby AFFIRMED.
SO ORDERED.
Dated: January 21, 2020

s/Terrence G. Berg
TERRENCE G. BERG
UNITED STATES
DISTRICT JUDGE

App. 25
UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
In the matter of:
Kathryn E. MacEwen Conti, Case No. 17-48277-MBM
Chapter 7
Debtor./ Hon. Marci B. McIvor
Kathryn E. MacEwen Conti,
Plaintiff,
Adv. Pro. No. 17-04711

vs.
Arrowood Indemnity Company,
Defendant./

ORDER GRANTING DEFENDANT’S
MOTION FOR SUMMARY JUDGMENT
For the reasons set forth on the record at a hearing
held on October 23, 2018;\
IT IS HEREBY ORDERED that Defendant’s Motion for Summary Judgment is GRANTED.
IT IS FURTHER ORDERED that Plaintiff ’s Motion for Summary Judgment is DENIED.
IT IS FURTHER ORDERED that Plaintiff ’s debt
to Defendant is nondischargeable pursuant to 11
U.S.C. § 523(a)(8)(B).
IT IS FURTHER ORDERED that Plaintiff ’s Complaint is DISMISSED.

App. 26
Signed on October 23, 2018

[SEAL]

/s/ Marci B. McIvor
Marci B. McIvor
United States
Bankruptcy Judge

App. 27
UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
IN RE: KATHRYN EILEEN
MACEWEN CONTI,

• Docket No. 17-04711
• Detroit, Michigan
• October 23, 2018
Plaintiff,
• 10:09 a.m.
v.
•
•
ARROWOOD
INDEMNITY COMPANY, •
•
Defendant.
•
• • • • • • • • • • • • • ••
HEARING RE.
MOTION FOR SUMMARY JUDGMENT
BEFORE THE HONORABLE MARCI B. MCIVOR
UNITED STATES BANKRUPTCY COURT JUDGE
APPEARANCES:
For the Plaintiff:

The Law Ofﬁces
of Guy T. Conti, PLLC
By: GUY T. CONTI
2045 Hogback Road
Ann Arbor, MI 48105
(888) 489-3232

For the Defendant: Jaffe, Raitt, Heuer & Weiss
By: PAUL R. HAGE
27777 Franklin Road, Suite 2500
Southﬁeld, MI 48034
(248) 351-3000

App. 28
Carruthers & Roth, P.A.
By: BRITTON C. LEWIS
235 N. Edgeworth St.
P.O. Box 540
Greensboro, NC 27401
(336) 379-8651
[2] Court Recorder: Jane Murphy
United States Bankruptcy Court
211 West Fort Street
21st Floor
Detroit, MI 48226-3211
(313) 234-0068
Transcribed By:

Lois Garrett
1290 West Barnes Road
Leslie, MI 49251
(517) 676-5092

Proceedings recorded by electronic sound recording,
transcript produced by transcription service.

[3] THE CLERK: Case Number 17-4711,
Conti versus Arrowood Indemnity Company.
THE COURT:
something?

Mr. Crowder, are you here on

MR. CROWDER: I believe the hearing was
– at least on my calendar it’s a 10:30 scheduling conference.
THE COURT:

Oh, okay. Perfect. I thought

we –
MR. CROWDER;

Yes, your Honor.

App. 29
THE COURT: – covered everything on the
docket, but this might be a little long, so if there was
something that you were here on on the nine o’clock
docket, I wanted to give you an opportunity to speak
ﬁrst, so –
MR. CROWDER:
appreciate it.

Thank you, your Honor. I

THE COURT: Good morning. Could I have
everyone’s appearance, please?
MR. CONTI: Good morning, your Honor.
Guy Conti on behalf of the plaintiff, Catherine MacEwen Conti.
MR. LEWIS: Good morning, your Honor.
Britton Lewis from Carruthers & Roth on behalf of the
defendant, Arrowood Indemnity Company.
MR. HALE: Good morning, your Honor. Paul
Hage, Jaffe, Raitt, Heuer & Weiss, also on behalf of Arrowood.
THE COURT: Good morning. This is the
date and time scheduled on cross motions for summary
judgment. However, the defendants ﬁled the ﬁrst motion for summary judgment, [4] so, Mr. Lewis, you can
go ahead. Are you arguing the motion?
MR. LEWIS:

Yes, your Honor.

THE COURT: Okay. And, again, as I’m sure
you heard – you haven’t been in my courtroom before,
but I read everything. Let’s talk about the housekeeping matter, I guess, ﬁrst. There was a reply brief ﬁled

App. 30
to the response to the motion for summary judgment.
There was an ex parte motion to strike the reply brief
ﬁled yesterday by defendant. Just for purposes of the
docket, to clean it up, I’m denying the motion to strike
because by the time I saw it, I’d already read it, and
I’ve read it and thought about it. I already had drafted
my opinion, to be honest. In oral argument I have some
questions today, but I just wanted to read and consider
the supplemental brief, so I’d already considered it actually, so I’m denying that ex parte motion just so
that’s out, but go ahead. This is the defendant’s motion
for summary judgment.
MR. LEWIS: Understood, your Honor. So I
think we have two different theories of why this matter
is nondischargeable here, ﬁrst 523(a)(8)(B), which really boils down to one issue. The defendant – or the
plaintiff has stipulated that these are student loans, so
the question is whether or not they’re qualiﬁed education loans based on the deﬁnitions set forth in the tax
code, which provides that qualiﬁed education loans are
dischargeable – or [5] nondischargeable if they’re solely
for qualiﬁed educational expenses. To ﬁgure out what
those are, we have to look to the Education Act, which
provides a breakdown of various expenses and allowances for expenses, so here we know that tuition and
fees and an allowance for miscellaneous personal expenses, an allowance for a number of other things are
all comprised of what the cost of attendance at an educational institution is. We have no questions as to anything under those provisions except for what is or isn’t
an allowance for miscellaneous personal expenses. Mr.

App. 31
Conti is arguing that certain language that’s contained
in the note was too broad and provided that expenses
made by Mrs. Conti when she was in school, expenses
she could have incurred while under the loans, were
outside of the statutory deﬁnition. That’s just not the
case, though. Essentially the argument is that the language in the note, speciﬁc education expenses, is a
broader category that can be used for more things than
the statutory language that provides that an allowance
for miscellaneous personal expenses is a component of
the cost of attendance. That just doesn’t make a lot of
sense, your Honor, and so basically the argument needs
– that we have to look at is whether or not the $200 –
or $200 a month that the University of Michigan provided was – the allowance for miscellaneous personal
expenses was so restricted that it couldn’t incur –
couldn’t include anything –
[6] THE COURT: I didn’t deal with that argument at all. I didn’t know there’s an argument. I
think this is all or nothing. I don’t understand. What is
this $200 argument?
MR. LEWIS: I’m sorry, your Honor. So the
budget we’ve attached as one of the exhibits to our motion for summary judgment provided a breakdown of
what different components of the cost of attendance
were.
THE COURT: Oh, the declaration that was
attached to the motion for summary judgment?

App. 32
MR. LEWIS: Yes, your Honor. And so they
provided that there was a $2,000 a year allowance for
miscellaneous personal expenses.
THE COURT:
cost of attendance?
MR. LEWIS:

And that was included in the
Correct.

THE COURT: Okay. And so Mr. Conti’s argument is that that $2,000 budget has to be for something other than – or that that has to be used for
something very speciﬁc, but we can’t ﬁgure out what it
is, and it just doesn’t make a lot of sense, your Honor.
And so ultimately I think we just need to look at what
the statutory language is, how these cases – matters
have been interpreted and go from there.
So we already know that there is deference from
Congress to the university. The IRS Code or the Education Code provides that the school will provide – determines what [7] those allowances are. Mr. Conti is
arguing that there’s ambiguity there, that we need to
look to an IRS publication in order to determine how
to interpret what that language relating to miscellaneous personal expenses is, and it gets into matters related to administrative law. I don’t think we need to go
into those matters. I think that we have no issues of
material fact here. I don’t think there’s any ambiguity
in the statute. I think the note provided everything
that it needed to, and we have a nondischargeable provision under 523(a)(8)(B). I also think these are nondischargeable obligations under 523(a)(8)(A)(ii).

App. 33
THE COURT: I’m not dealing with (A)(ii).
All the case law says it’s one or the other.
MR. LEWIS:

Right.

THE COURT: The debtor has argued this
exclusively under – I mean under 523(a)(8)(B).
MR. LEWIS:

Okay.

THE COURT: I’ve already made the determination that this is a – if it’s anything, it’s a qualiﬁed
educational loan. It’s not a beneﬁt.
MR. LEWIS:

Yeah.

THE COURT: It doesn’t fall into the kinds of
– I mean it can’t be both. It’s one or the other.
MR. LEWIS:

Yeah.

THE COURT: And in preparing for this
opinion, I [8] looked at everything and all the deﬁnitions of a qualiﬁed loan. This is a – this is or it’s not. It
lives or dies under 523(a)(8)(B), so you don’t need to
deal with that argument.
MR. LEWIS: Okay. I understand, your Honor.
Well, in that case, we’ll just look at 523(a)(8)(A)(ii).
Like I said, I just don’t think there’s any disputed material fact, and I don’t think there’s ambiguity here.
And I think that Mr. Conti’s argument that we need to
defer to an IRS publication falls ﬂat. An IRS publication isn’t in the ofﬁcial agency action. There’s plenty of
case law out there that says those can’t even be relied
on in terms of making ofﬁcial actions.

App. 34
THE COURT: Well, it’s also – and, Mr. Conti,
you can make this argument to me, but it was totally
taken out of context. I’m speaking really to you, Mr. –
that’s not a Bankruptcy Code. Those decisions where
they’re talking about necessary are, I assume, in tax
court, and they’re not dealing with dischargeability.
They’re dealing with whether or not – as I understand
it when I looked through the regulations, what they’re
dealing with is if someone comes in and is – it’s usually,
you know, in an audit situation, and it has to do with
tax returns and what you get to deduct for student
loans. And in the context of determining whether an
expense is a proper deduction, then it might be looked
at [9] then, but that’s – they’re not bankruptcy decisions. That’s the context. And even then “necessary”
isn’t deﬁned, so I don’t really understand that argument very well because it was not put in context. There
were no cases cited, and it’s citing to a body of IRS regs
about what, so I’m – you don’t need – I’m already convinced about that argument.
MR. LEWIS: All right. In that case, I don’t
know that I have anything further to add at this time,
your Honor.
THE COURT: Okay. Thank you. Mr. Conti, I
have one question for you ﬁrst, and that is are you arguing that there are fact questions, or are you arguing
that this is a purely legal issue and I just need to deny
summary judgment and grant summary judgment to
you because it’s a purely legal issue over whether this
is a qualiﬁed educational loan?

App. 35
MR. CONTI: Well, your Honor, I do want to
answer your question directly, but I need to point out
that when a party moves for summary judgment and
the other party moves for cross summary judgment
that it is possible, given the burdens that there be genuine issues of material fact as too one motion and not
to the other, the reason –
THE COURT:
MR. CONTI:

No, no.
Well, yes, your Honor.

THE COURT: So if there no genuine issues
of fact because you’re making a legal argument and the
legal argument wins, then you win.
[10] MR. CONTI: Well, but the problem
there is that on one motion –
THE COURT: You really can’t have both
facts -MR. CONTI: I disagree, your Honor.
THE COURT:
summary judgment.

– and prevail on a motion for

MR. CONTI: I disagree, your Honor, and let
me explain why, because on one motion the facts asserted must be interpreted and construed in the favor
most – in favor of the nonmoving party, and so that creates two different factual standards that the –
THE COURT: The facts are the facts. The
question is whether the law is applied to those facts,
whether I can make a legal ruling. If there are fact
questions in this matter, what do you think they are?

App. 36
MR. CONTI: Your Honor, ﬁrst of all, I think
one of the more signiﬁcant factual issues in this matter
is when plaintiff – excuse me – defendant argues that
Congress gives deference to the university but then admits that the university didn’t certify the cost of attendance or even the –
THE COURT: Let’s talk about certifying. I
don’t really understand why that’s a question of fact. I
have a whole little side memo on certiﬁcation. It appears to be undisputed that some of these loans
weren’t certiﬁed, but [11] how does that have anything
to do with the debtor?
MR. CONTI: Well, your Honor, it has to do
with the loan agreement. The loan agreement calls for
the institution to certify the cost of education in order
to determine the loan amounts, your Honor. Without
the certiﬁcation of the – without the contemporaneous
certiﬁcation of the institution at the time, there’s no
way to know – even assuming, if you accept the defendant’s argument that the cost of attendance is the same
as what’s called for in the contract, which is the cost of
education, which we don’t accept, even if that’s the
case, in four out of the ﬁve loans that number wasn’t
determined.
THE COURT: Well, I completely – I do not
agree with your argument at all, and I’m going to explain right now. I actually did not include this in my
opinion, but I’m going to explain it so it’s clear if you
take this up on appeal.

App. 37
The certiﬁcation process – it’s very clear when you
look at it – is to protect the lender. It’s to protect the
lender from possibly loaning too much money and then
at some point in time having a debtor ﬁle for bankruptcy and say, “Oh, guess what? That’s dischargeable.”
Certiﬁcation is a protection for the lender, not for the
borrower. In the facts of the instant case, your client,
the plaintiff, always borrowed less than the amount
that the University of Michigan [12] determined to be
the cost of education, cost of attendance. Same thing in
my mind. They determined they’re not. She always borrowed less. So certiﬁcation, while the U of M should
have certiﬁed it, it doesn’t do anything. It’s a protection
for the lender. The lender is going to be harmed by it.
To draw the conclusion that because there wasn’t certiﬁcation this is not a qualiﬁed student loan, there’s
nowhere in the deﬁnition of qualiﬁed student loan,
which is very clearly deﬁned in the Internal Revenue
Code, that certiﬁcation has any relevance at all, so
move on to your next argument. Another fact question?
MR. CONTI: Your Honor, – I apologize, your
Honor. If your Honor would let me consult my notes –
THE COURT: Okay. Go ahead. You know, I
jumped in because I really was confused about
whether you’re arguing for summary judgment or arguing these questions of fact, and it kind of framed my
questions, but I’m sure you had an argument prepared.
Why don’t you just go ahead and make your argument,
and I’ll –
MR. CONTI:

Well, your Honor –

App. 38
THE COURT:
your argument?

– ask questions related to

MR. CONTI: – quite frankly, I don’t think we
have much to add. Your Honor didn’t strike our reply
brief, which was, in effect, just an argument brief. It
didn’t raise any [13] new case law. It basically just
framed the argument that we had all along that there
are ambiguities in this contract, and the ambiguities
have to be construed in the favor of the debtor according to New York law, which is the law that governs this
contract. Your Honor, the –
THE COURT: I agree that that’s the law, but
I don’t ﬁnd any ambiguities. Let me ask you this question. If I was to accept your argument because you
made it very clear that you didn’t think I understood
your argument before -and fair enough, maybe I didn’t
– is it your argument that this – that no loan that was
– no private lender loan that could be excepted from
discharge between the period – any private loan that
was given to a debtor prior to 2005 when this language
was added?
MR. CONTI: That is not our position, your
Honor. Our position is that this loan is excepted – is
not excepted from discharge.
THE COURT: And what makes this loan
different? No loan that was granted prior to 2005 included the language “qualified educational loan” because there was no reason to include that language.
That was statutory language. So why is this loan – the
way I see it is if I was to rule the way you’ve asked me

App. 39
to rule, any private loan before 2005 would be disqualiﬁed from the protection of 523(a)(8)(B), so tell me why
that’s not true.
[14] MR. CONTI: Your Honor, you’re saying
that there was no reason for a lender prior to 2005 to
put that in, and I would add to essentially adhesive
loan documents, and our position –
THE COURT: This is not an adhesive – this
is a -these are routine documents provided for a loan.
This is not a contract of adhesion.
MR. CONTI: If the Court is actually taking
the position that a contract that is presented to one
party where a party can’t negotiate it and can’t change
it is not adhesive –
THE COURT: This is not involuntary. There
was no gun to her head. She took out this money because she needed money. All student loans –
MR. CONTI:
adhesive loan.

That’s not the deﬁnition of an

THE COURT: Okay, but I dare say there are
many loans that look exactly like those. Those are all
– so that’s your argument? Any of those loans are –
MR. CONTI: I’m not ﬁnished with my argument, your Honor. I’m not being given the chance to
give it to you completely.
THE COURT: Okay. Well, I don’t ﬁnd this a
contract of adhesion. Carry on.

App. 40
MR. CONTI: That’s ﬁne, your Honor. So
what we’re [15] arguing, your Honor, is that just like
everybody else in the United States prior to BAPCPA,
lenders were allowed to set the terms of their loans.
The statutory language that your Honor refers to when
you say there was no reason for them to include it because it’s a statutory deﬁnition, it was in existence.
They could have included it, but there’s no -but there’s
no anticipation that Congress is going to change the
law on the part of either party.
THE COURT: Tell me this answer. Yeah,
there is no anticipation. Exactly.
MR. CONTI:
THE COURT:
MR. CONTI:

Correct.
My point.
Correct.

THE COURT: So you didn’t have to put in a
loan qualiﬁed student educational loan.
MR. CONTI:
THE COURT:
MR. CONTI:
THE COURT:

But you could have.
But why would you?
But you could have.
Okay.

MR. CONTI: Because those are the terms
you wanted to be a lender –
THE COURT:

No, they were not the terms.

App. 41
MR. CONTI:
contract.
THE COURT:

– a private lender to a private
You’re making this up.

[16] MR. CONTI:
up, your Honor.

No, I’m not making this

THE COURT: You choose the word “qualiﬁed” even though nowhere in any statute or contract
do you have to say qualiﬁed. It doesn’t exist.
MR. CONTI: Well, how come they chose the
word “speciﬁc,” speciﬁc education expenses, and then
they don’t deﬁne it? Why did they choose that?
THE COURT: Let me ask you the difference – what do you think the differences between
523(a)(8)(A) and 523(a)(8)(B) is?
MR. CONTI: Well, I think it’s a huge difference. The ﬁrst – ﬁrst of all, 523(a)(8)(A) does not limit
educational loans to higher education loans. If you
read (a)(8)(A), it would include all educational loans
that were either made or backed by a governmental
unit or a nonproﬁt. That would include things like secondary and even elementary loans. Also, your Honor,
it’s very, very important to look –
THE COURT: This is more than I need.
What do you think is different about educational loans
speciﬁcally and qualiﬁed educational loans? One is the
term in 523(a)(8)(A). One is the term in 523(a)(8)(B).
MR. CONTI:

Your Honor –

App. 42
THE COURT:
kinds of loans?

What’s the difference in those

[17] MR. CONTI: Your Honor, the 523(a)(8)(A)
loans, educational loans, are deﬁned entirely, according
to bankruptcy jurisprudence, by case law. There is no
statutory deﬁnition of educational loans. It is a very
wide-ranging – as interpreted by the courts nationwide, a very wide-ranging type of deﬁnition. It includes
by many, many court decisions items – loans that are
provided that by nature of the agreement – I want to
be clear, not by use, by the actual use of the debtor, by
nature of the agreement that they can be used for a
wide variety of things as long as the substance of the
transaction is educational.
THE COURT: Okay. Now, why is 523(a)(8)(B)
any different?
MR. CONTI: Because of – when you dig
down first from the Bankruptcy Code to the IRS
Code –
THE COURT:

Absolutely.

MR. CONTI:

– and in the Education Act –

THE COURT:

It references the IRS Code.

MR. CONTI: – and into the Education Act
because Congress had the choice – they could have said
educational loans, like they did in (a)(8)(A), but they
did not. They chose through incorporation to use qualiﬁed higher education loans, so now we have two –

App. 43
THE COURT: And why do you think they
did that? Why do you think they did that?
[18] MR. CONTI: You know what? Honestly,
I’m a little – I really don’t know why they did that, but
I do know that it was a choice to do that.
THE COURT: Okay. Well, my opinion is going to explain why they did that.
MR. CONTI:

Okay.

THE COURT: And it has nothing to do with
narrowing the language of miscellaneous personal expenses, so I was just curious because your brief does
spend a lot of time talking about the word “solely” as if
somehow that negates miscellaneous personal expenses, which is in the deﬁnitional section, which are
exactly the expenses that 523(a)(8) loans cover, so okay.
MR. CONTI: That’s ﬁne. Your Honor, as I
said, you know, honestly, your Honor, you know, based
upon our last hearing, I didn’t walk in here thinking I
had much of a shot of winning today, so that’s okay. I
don’t have much to add that has not been added in the
paperwork. Certainly I’ll answer your questions as
best I can, and then, you know, we’ll move on.
THE COURT: Okay. I am prepared to issue
an opinion. I did ﬁnd this issue – this actually was extremely time-consuming because there isn’t a lot of law
out there on 523(a)(8)(B), but having read about every
student loan case out there and thought long and hard
about [19] 523(a)(8)(B) and the distinctions between
(a)(8)(B) (a)(8)(A), I am prepared to rule.

App. 44
This matter is before the Court on cross motions
for summary judgment on plaintiff debtor’s single
count adversary complaint. The complaint seeks a declaratory judgment that plaintiff ’s student loans are
dischargeable in her Chapter 7 bankruptcy. In the complaint plaintiff asserts that the loans she obtained
while a full-time university student are dischargeable because they were not, quote, “qualified educational loans,” unquote, pursuant to 11 U.S.C., Section
523(a)(8)(B). For the following reasons, plaintiff ’s motion for summary judgment is denied, defendant’s motion for summary judgment is granted, and plaintiff ’s
complaint is dismissed.
The factual background of this case is as follows.
From 1999 to 2003, debtor, Catherine MacEwen Conti,
attended the University of Michigan where she obtained a bachelor of musical arts degree. She was an
out-of-state resident and paid tuition at the out-ofstate rate. For out-of-state students, the cost of attending the University of Michigan, as determined by the
university, was $27,880 for academic year 1990-2000,
$30,170 for academic year 2000-2001, $31,958 for academic year 2001-2002, and $34,120 for academic year
2002-2003. See Docket Number 94 of Defendant’s Exhibit B, speciﬁcally the afﬁdavit of Pamela Fowler, executive [20] director for the ofﬁce of ﬁnancial aid at the
University of Michigan, and the schedules attached to
her afﬁdavit, which delineate the speciﬁc expenses
that are included in the cost of attendance or cost of
education. These amounts include tuition, standard
fees, and budgeted amounts for books, supplies, room,

App. 45
board, and various personal and miscellaneous expenses for an out-of-state resident majoring in music
and enrolled in the fall and winter terms. And all those
expenses are delineated on the attachments to the afﬁdavit.
To ﬁnance her education, Conti borrowed money
from Citibank. At issue in the present case are ﬁve
loans made by Citibank to Conti between October 2000
and February 2003 totaling $76,049. The loans were
consecutively numbered 21 through 25, and this opinion will retain that numbering scheme for clarity.
On September 18, 2000, plaintiff applied for Loan
21 seeking to borrow $24,500. Citibank approved the
application and on October 4, 2000, loaned plaintiff
$24,500. On November 5th, 2001, plaintiff applied for
Loan 22 seeking to borrow $25,000. Citibank approved
the application and on November 12, 2001, loaned
plaintiff $25,000. On May 25th, 2002, plaintiff applied
for Loan 23 seeking to borrow $7,000. Citibank approved the application in the amount of $6,470 and on
May 29th, 2002, plaintiff – loaned plaintiff $6,470. On
September 9, 2002, plaintiff applied for Loan 24 seeking to [21] borrow $15,000. Citibank approved the application in the amount of $13,797 and on September
20th, 2002, loaned plaintiff $13,797. On January 21st,
2003, plaintiff applied for Loan 25 seeking to borrow
$6,282. Citibank approved the application and on February 18, 2003, loaned plaintiff $6,282.
The total amount borrowed from Citibank for each
academic year from 2000 to 2003 was less than the cost

App. 46
of attendance at the University of Michigan for each
year. Again, look at the declaration of the ﬁnancial aid
ofﬁcer and the schedules attached thereto.
Plaintiff ’s loan applications, which appear to operate as the promissory notes upon approval, are
identical for each loan with Section A asking for student applicant information, including the name of
the school and the year in school for which this loan
will be used. Section B captioned “Loan Information”
sought the loan amount being requested and the academic year for which the funds were to be used. The
applicant could check one of two payments options,
make no payment while in school and make payments
while in school. The small print in Section B stated,
quote, “You may borrow up to the full cost of education
less any ﬁnancial aid you are receiving. Your school
will be requested to certify this amount, and the ﬁnal
approved loan amount could be less than the amount
requested,” end quote.
[22] Section F of the application, the signature section, states, quote, “Please read your enclosed promissory note in its entirety before signing this section,”
end quote. It goes on to include a promise to pay, quote,
“all sums disbursed under the terms of this application, the loan, plus interest and other charges which
may become due as provided by the note. The terms
and conditions set forth in this application and the
note constitute the entire agreement,” end quote. A
separate page of terms titled, quote, “promissory note/
borrower’s copy,” end quote, hereinafter referred to as
the note, states that, quote, “I, deﬁned as the borrower,

App. 47
the student applicant, understand that the proceeds of
this loan, if approved, must be used for educational
purposes and that disbursements will be sent to my
school by check or electronic funds transfer.” Another
section of the note captioned “security interest” states,
quote, “I understand that the proceeds of this loan are
to be used for speciﬁc educational purposes. I grant you
a security interest in any refunds of the proceeds of the
loan given to me by my educational interest or any
other party,” end quote.
For some pretty considerable period of time Conti
made the required payments on the Citibank loans. On
May 31st, 2017, Conti ﬁled a voluntary Chapter 7
bankruptcy petition. Included on Schedule E/F, unsecured debts, are the [23] student loans from Citibank
to plaintiff which were assigned to defendant Arrowood. The description for each Arrowood loan listed
states, quote, “Loan made during college. Debtor asserts that loan is not excepted under 523(a)(8).”
On October 10, 2017, debtor ﬁled an adversary
complaint seeking a determination as to the dischargeability of the Citibank loans. The complaint asserts
that 11 U.S.C., Section 523(a)(8)(B), the only student
loans excepted from discharge are, quote, “qualiﬁed education loans,” unquote, meaning loans made solely to
cover qualiﬁed higher education expenses as deﬁned
by the Internal Revenue Code. Debtor asserts that because her loans did not expressly limit the use of the
loan proceeds to qualiﬁed higher education expenses,
the loans were not made solely to cover qualiﬁed

App. 48
higher education expenses and the loans are dischargeable in her bankruptcy.
On July 18, 2018, defendant filed the present
motion for summary judgment. Defendant asserts
that all of the funds received by debtor from Citibank
were qualiﬁed educational loans within the scope of
523(a)(8)(B) and are not dischargeable. On September
4, 2018, plaintiff ﬁled a brief responding to defendant’s
motion for summary judgment and supporting her own
motion for summary judgment. On September 17, 2017
(sic), defendant ﬁled a response to plaintiff ’s motion for
summary judgment and a reply to [24] plaintiff ’s response to defendant’s motion for summary judgment.
On October 20th, 2018, plaintiff ﬁled a reply to defendant’s brief in support of its opposition to plaintiff ’s – or
to plaintiff ’s motion for summary judgment. On October 22nd, 2018, defendant ﬁled an ex parte motion to
strike plaintiff ’s reply to defendant’s response. This
Court has already dealt with this matter. The Court
has denied that motion because the Court, at the time
in which it came in, had already considered the brief
and read the relevant case law, so I could hardly strike
it since I had taken it into consideration.
Today is the date and time set forth – or set for the
cross motions on summary judgment. This Court has
jurisdiction over this matter pursuant to 28 U.S.C.,
Section 1334(a). This is a core proceeding pursuant to
28 U.S.C., Section 157(b)(2)(A), (B), and (I). Venue is
proper pursuant to 28 U.S.C., Section 1408 and 1409.

App. 49
Federal Rule of Civil Procedure 56 is the relevant
rule for summary judgment. It is incorporated into
Federal Rule of Bankruptcy Procedure by way of 7056.
Summary judgment is only appropriate when there’s
no genuine issue as to any material fact and the moving party is entitled to judgment as a matter of law.
The central inquiry is whether the evidence presents a
sufﬁcient disagreement to require submission to a jury
or whether it is so one-sided that one [25] party must
prevail as a matter of law. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, a Supreme Court case from
1986. The movant has the initial burden of showing the
absence of a genuine issue of material fact. See Celotex
v. Catrett, 477 U.S. at 317. A genuine issue is one where
no reasonable fact-ﬁnder could return a judgment in
favor of the nonmoving party. See Berryman v. Rieger,
150 F.3d 561, a Sixth Circuit decision from 1998, citing
the Anderson case, Anderson v. Liberty Lobby, at 477
U.S. at 248. Once the movant meets this burden, the
nonmovant must do more than simply show there is
some metaphysical doubt as to the material facts. If
the record taken in its entirety could not convince a
rational trier of fact to return a verdict in favor of the
nonmoving party, the motion should be granted. See
Cox v. Kentucky Department of Transportation, 53
F.3d 146, a Sixth Circuit decision from 1995.
The general rule of Chapter 7 bankruptcy is that
a bankruptcy debtor’s preexisting ﬁnancial obligations
are discharged and the debtor begins with a clean ﬁnancial slate. There are, however, several exceptions to
the general rule. Those exceptions include 11 U.S.C.,

App. 50
Section 523(a)(8), which excepts from discharge certain student loan obligations. Section 523(a)(8) provides in relevant part, “(a) A discharge under section
727 of this title does not discharge an individual debtor
from any debt, (8) unless [26] excepting such debt from
discharge under this paragraph would impose an undue hardship on the debtor and the debtor’s dependents for (A)(i) an educational beneﬁt overpayment or
loan made, insured, or guaranteed by a governmental
unit or made under any program funded in whole or in
part by a governmental unit or nonproﬁt institution; or
(A)(i) an obligation to repay funds received as an educational beneﬁt, scholarship, or stipend; or (B) any
other educational loan that is a qualiﬁed education
loan, as deﬁned in Section 221(d)(1) of the Internal
Revenue Code of 1986 incurred by a debtor who is an
individual.”
In the vast majority of cases brought under
523(a)(8), plaintiff seeks to have their student loans
determined to be dischargeable on the grounds that
the repayment of the loans would impose an undue
hardship on the plaintiff debtor. In those cases, the
creditor bears the initial burden of proving the debt exists and the debt is of a type excepted from discharge
under 523(a)(8). I’m omitting the internal citations
here. If the creditor meets its burden, the debtor may
– the debt may only be discharged if the debtor establishes that repayment of the debt would constitute an
undue hardship. See Maas v. Northstar Education Finance, In re. Maas, 497 B.R. 863, a bankruptcy decision
from the Western District of Michigan from 2013.

App. 51
In the instant case, plaintiff is not disputing that
[27] her student loan debt exists nor is she arguing
that repayment of the loans would impose an undue
hardship on her. Rather, plaintiff argues that her loans
are not excepted from discharge because she used a
portion of her student loan proceeds for personal expenses, and in doing so her loans were no longer qualiﬁed educational loans. This Court ﬁnds this to be a
completely legal issue, and the burden of proof, once
it’s been established that they’re educational loans,
there really – it’s just an analysis of the law and not
really burden shifting in terms of a factual analysis.
The Court has found numerous cases in which
plaintiffs have argued that their loans were dischargeable because they used a portion of the loan
for personal expenses. Those arguments have been
universally rejected by the courts. In a recent case,
Baptiste v. Educational Credit Management Corp., In
re. Baptiste, 584 B.R. 574, a bankruptcy decision from
the Eastern District of New York from 2018, the plaintiff argued that her student loans were not qualiﬁed
education loans under 11 U.S.C., Section 523(a)(8)(B),
because she used a portion of her loan proceeds for
birthday gifts, concert tickets, and holiday shopping.
The court ﬁrst analyzed whether these were – whether
these loans were a 523(a)(8)(A) obligation or an
(a)(8)(B) obligation, and even though the debtor had
argued that they were granted under 523(a)(8)(B), the
Court disagreed and concluded that [28] the plaintiff ’s
loans were loans from a nonproﬁt institution and were,
therefore, covered under 523(a)(8)(A)(i) rather than

App. 52
523(a)(8)(B). The court went on then to ﬁnd that the
plaintiff ’s loans were educational loans which could
not be excepted from discharge even though the plaintiff used a signiﬁcant portion of the loan proceeds for
purposes other than room, board, and tuition. The
court adopted the position that the stated purpose and
not the actual use of the loans determines whether a
loan is an educational loan excepted from discharge
under 523(a)(8). The court cited Murphy v. Pennsylvania Higher Education Assistance Agency v. Murphy,
hereinafter referred to as In re. Murphy, 282 F.3d 868,
a Fifth Circuit decision from 2002, in which the Fifth
Circuit Court of Appeals stated – and this is quoted in
the Baptiste opinion – quote, “Permitting students to
discharge student loans in bankruptcy because the
student spent the money on social uses, alcohol, or
even drugs would create an absurd result. Students
who used the loan proceeds to finance an education
would retain the burden of paying them even after
a chapter 7 discharge; irresponsible students who
abused the loans would gain the beneﬁts of discharge.”
See Baptiste, 584 B.R. 585, quoting Murphy, 282 F.3d
at 873. The court in Baptiste went on to quote the Fifth
Circuit explaining that, quote, “The purpose of the loan
proceeds approach – of the loan approach has been
found to be most [29] consistent with the language of
section 523(a)(8)(A) for loans made, insured, or guaranteed by a governmental unit or loans made under
any program partially or fully funded by a governmental unit.” See Busson-Sokolik, 635 F.3d at 266.

App. 53
The purpose of the loan approach aligns with the
broader goal of protecting lenders against debtors who
deferred educational funds towards other uses and
avoids the problem of irresponsible debtors obtaining
a discharge while responsible debtors do not by refocusing the inquiry on the nature and character of the
loan, and that is set forth at Baptiste 584 B.R. at 586.
Another recent case from the Western District of
Michigan reached the same conclusion as the Baptiste
case and the cases cited therein. In Maas v. Northstar
Education Financial, Inc., In re. Maas, 497 B.R. 863, a
bankruptcy case from the Western District of Michigan
from 2003, the plaintiff argued that he used a portion
of his loan proceeds for general living expenses both
before and after law school, and, therefore, the loans
were not educational loans which could be excepted
from discharge. The court rejected the plaintiff ’s arguments. The court stated, quote, “Courts adopting the
purpose test have held that focusing on the purpose of
the loan seems most consistent with the language of
523(a)(8). As explained by the Fifth Circuit Court of
Appeals, Section 523(a)(8) does not expressly state that
[30] loans used for tuition are nondischargeable. Nor
does it deﬁne educational loans as excluding living or
social expenses,” and the judge, again, cited to In re.
Murphy. “Loans that enable a student to pay for room,
board, and other living expenses while attending
school facilitate the student’s education and certainly
have educational beneﬁts. Focusing the analysis” – I’m
still quoting from the opinion – “Focusing the analysis
on the purpose of the loan rather than the use of the

App. 54
proceeds also avoids potential inequities that could result from the application of a use test.” And then the
court went on to quote from a case, In re. Sokolik, as
follows: “A test that is based on the use of the loan proceeds would enable students who abuse funds intended
for their education to receive the beneﬁt of a discharge,
while those who used the loan proceeds as intended
would retain the burden of paying them even after a
Chapter 7 discharge. The purpose test avoids this potential problem by refocusing the inquiry on the nature
and character of the loan. For example, rather than
trying to determine whether a computer purchased
with loan money was used for schoolwork, personal use
or some combination of both, we need only ask whether
the lender’s agreement with the borrower was predicated on the borrower being a student who needed ﬁnancial support to get through school.”
The court in Maas concluded, quote, “None of the
[31] arguments raised by the Debtor are sufﬁcient to
overcome the plain language of the loan application
documents, which speciﬁcally and repeatedly reference
the educational nature of the loans. For instance, the
Debtor has asserted, both in his complaint and oral argument, that the loans were general cash advances to
cover living expenses during law school and immediately after graduation. The Debtor has offered no evidence to support this argument. However, even if the
court accepts the Debtor’s factual representations as
true, such facts do not alter the dischargeability analysis. Section 523(a)(8)(A) makes no distinctions between loans, quote, used for tuition, unquote, and those

App. 55
used to pay for other expenses,” again citing to In re.
Murphy at 282 F.3d 869, which held that a portion of a
federal student loan used by a debtor to purchase a car
and pay for housing, food, and fraternity dues is still
excepted from discharge. “Further, under the purpose
test, the Debtor’s actual use of the loan proceeds is immaterial. It is the nature of the loans that controls. The
loan documents conclusively establish that the loans
were premised on the Debtor’s status as a student and
were for educational purposes,” Maas, 497 B.R. at 870.
In the instant case, plaintiff is making the identical argument as that made by the plaintiffs in the
above-referenced cases, and that is that her loan
should not be excepted from discharge because she
used some of her loan [32] money for personal expenses. Plaintiff argues, however, that none of the
cases speciﬁcally addressing this argument are persuasive because all of these cases have been decided in
the context of 11 U.S.C., Section 523(a)(8)(A), rather
than under 11 U.S.C., Section 523(a)(8)(B). This case,
thus, raises an issue of ﬁrst impression. Speciﬁcally, is
the purpose test applicable only to educational loans
made under 523(a)(8)(A) or is the purpose test equally
applicable to educational loans that are qualiﬁed educational loans made under 523(a)(8)(B). This Court
ﬁnds that the purpose test is equally applicable to educational loans made under 523(a)(8)(B) for the following reasons. This Court’s conclusion that the purpose
test is as applicable to loans made under 523(a)(8)(B)
as it is to loans that are made under 523(a)(8)(A) is
based on a careful reading of Section 523(a)(8)(B). 11

App. 56
U.S.C., Section 523(a)(8)(B), was added to the Bankruptcy Code by BAPCPA. The purpose of 523(a)(8)(B)
was to expand the discharge exception to private student loans. See In re. Enqen, 561 B.R. 523, a bankruptcy case from the District of Kansas from 2016.
See also 4 Collier on Bankruptcy, 523.142. The scope
of education loans excepted from discharge under
523(a)(8)(B) is limited to loans which are qualiﬁed education loans under the Internal Revenue Code. See
Brown v. Citibank, In re. Brown, 539 B.R. 853, bankruptcy, Southern District of California, 2015. The [33]
question for the Court is whether there is any qualifying language in the Internal Revenue Code which
would preclude this Court from applying the purpose
test to loans made under 523(a)(8)(B). Section 21 of the
Internal Revenue Code provides, deﬁnitions, (d)(1), for
purposes of this section, qualiﬁed education loan, “The
term ‘qualiﬁed education loan’ means any indebtedness incurred by the taxpayer solely to pay qualiﬁed
higher education expenses (A) which are incurred on
behalf of the taxpayer, the taxpayer’s spouse, or any
dependent of the taxpayer as of the time the indebtedness was incurred; (B) which was paid or incurred
within a reasonable period of time before or after the
indebtedness was incurred, and which are attributable
to education furnished during the period during which
the recipient was an eligible student.” See 26 U.S.C.,
Section 221(d)(1). Qualiﬁed higher education expense
is deﬁned in the following section, Section 221(d)(2), as,
quote, “cost of attendance as deﬁned in Section 472 of
the Higher Education Act of 1965,” 20 U.S.C., Section
10981, which states that the cost of attendance is

App. 57
deﬁned in the Higher Education Act in relevant part –
this is the – quoting from the Higher Education Act as
(1) tuition and fees normally assessed a student carrying the same academic workload as determined by the
institution, and including costs for rental or purchase
of any equipment, materials, or supplies required of all
[34] students in the same course of study and (2) an
allowance for books, supplies, transportation, and miscellaneous personal expenses, including a reasonable
allowance for the documented rental or purchase of a
personal computer for a student attending the institution on at least a half-time basis, as determined by the
institution. See 28 U.S.C., Section 118711, Sections 1
and 2.
Generally courts have found that the cost of attendance equals the cost – equals the sum of the borrower’s expenses including allowances for room and
board, miscellaneous personal expenses, and child care
under an analysis that assumes that loans must cover
a full-time student’s living expenses so that he or she
has the time and energy to study and attend classes,
end quote. See Murphy v. Penn Higher Education Systems Agency, 282 F.3d 868.
In sum, a qualiﬁed education loan for purposes of
dischargeability under 523(a)(8)(B) is a loan made
solely to pay qualified higher education expenses. Qualified higher education expenses are those expenses
which are included in the cost of attendance. The cost
of attendance is broadly deﬁned to include not only
tuition, books, room and board, but also miscellaneous personal expenses. Since both qualiﬁed education

App. 58
loans, as deﬁned in the Internal Revenue Code, and educational loans made under 523(a)(8) provided for miscellaneous personal expenses as part of the cost of an
[35] education or the cost of attendance, this Court can
see no reason to differentiate loans made under
523(8)(A) from loans made under 523(a)(8)(B) for purposes of dischargeability.
The logic of the cases which have held that the
purpose of the loan, not the use of the loan, determines
dischargeability is equally applicable to loans made by
a private lender. As fully discussed in the above-cited
cases, public policy strongly mitigates against favoring
debtors who use their student loan proceeds for personal use by granting them a discharge while denying
a discharge to those who limit the use of their student
loan proceeds to tuition and board. See Baptiste at 581.
As a practical matter, the purpose test saves courts
from engaging in a fact-based inquiry as to what is an
appropriate miscellaneous personal expense. Is the
purchase of a hamburger an appropriate miscellaneous personal expense whereas the purchase of steak is
not? Is the purchase of a college football ticket an acceptable miscellaneous personal expense whereas a
theater ticket not? There’s simply no support in either
the statute or the case law for the argument that private student lenders are subject to a different standard
for purposes of dischargeability than lenders who
make educational loans deﬁned by 523(a)(8)(A). This
Court concludes that the purpose test applies to the
analysis of loans made under 523(a)(8)(B). It is the purpose of the loan, not the use of the loan proceeds, which

App. 59
[36] determines dischargeability. In the instant case,
plaintiff signed ﬁve separate notes in which she
acknowledged that the loan would be used for speciﬁc
educational purposes. Since plaintiff acknowledges
that the loans were used for speciﬁc educational purposes, unquote, and plaintiff used the loans to attend
the University of Michigan, under the purpose test the
Court need make no further inquiry into how plaintiff
spent the proceeds of her student loans. The entire
amount borrowed by plaintiff is nondischargeable under 11 U.S.C., Section 523(a)(8)(B).
The Court would also like to address some of the
other arguments made by plaintiff because plaintiff
made some creative arguments. None of them were
persuasive, but it is important to explain why those arguments don’t work in the context of the law, 523(8)(B).
I have to note that plaintiff failed to cite any case law
in support of her argument that her loans are dischargeable because she used a portion of the loan proceeds for personal expenses. Instead, plaintiff makes a
statutory construction argument which for this Court
was both difﬁcult to understand and unpersuasive.
Plaintiff ’s argument rests on the language used in Internal Revenue Code 28 U.S.C., Section 221(d)(1). As
fully discussed above, 11 U.S.C., Section 523(a)(8)(B),
excepts from discharge educational loans that are
qualiﬁed educational loans as that term is deﬁned in
221(d)(1) of the [37] Internal Revenue Code. Section
221(d)(1) provides that a qualiﬁed student loan means
any indebtedness incurred by the debtor solely to pay
qualiﬁed higher education expenses. Plaintiff contends

App. 60
that the use of the word “solely” in Section 221(d)(1)
creates a substantive distinction between education
loans obtained under 11 U.S.C., Section 523(a)(8)(A),
and qualiﬁed education loans obtained under 11
U.S.C., Section 523(a)(8)(B). According to plaintiff, the
addition of the word “solely” to the deﬁnition of qualiﬁed student loans means that qualiﬁed student loans
may not be used for any type of personal expenses.
Plaintiff ’s argument is unpersuasive. It is undisputed
that 11 U.S.C., Section 523(a)(8)(B), links the deﬁnition
of qualiﬁed student loans to Section 221 of the Internal
Revenue Code. Plaintiff ’s argument raises the question of why did Congress choose to link the deﬁnition
of qualiﬁed student loans to the Internal Revenue
Code. The answer to that question lies in the regulations which govern Internal Revenue Section – Code
Section 221. It is clear from the regulations which support Internal Revenue Code Section 221 that the general purpose of that code section is to permit a
taxpayer to deduct interest paid on certain types of education loans. See 26 CFR, Section 1.221-1(a), that
states, “Applicability. Under section 221, an individual
taxpayer may deduct from gross income certain interest paid by taxpayer,” end quote. The [38] regulations
make clear that the interest is only deductible if the
sole purpose of the loan is for an educational purpose.
This restriction on what type of loans qualify for an interest deduction is necessary because loans obtained
from private lenders could be multi-purpose loans. If
the loan is obtained for both educational purposes and
some noneducational purpose, the interest will not be
deductible. The example given by the IRS regulations

App. 61
as to interest which is not deductible is as follows,
quote, “Example 6, mixed use loans. Student J signs a
promissory note for a loan secured by Student J’s personal residence. Student J will use part of the loan proceeds to pay for certain improvements to Student J’s
residence and part of the loan proceeds to pay qualiﬁed
higher education expenses of Student J’s spouse. Because Student J obtains the loan not solely to pay the
qualiﬁed higher education expenses, the loan is not a
qualiﬁed education loan,” end quote. And that example
is set forth at 26 CFR, Section 1221-1(e)(4). Based on
the above regulation, loans which are obtained for both
educational and some other purpose totally unrelated
to expenses incurred as part of the cost of attendance
at an eligible institution are not qualiﬁed education
loans under 11 U.S.C., Section 523(a)(8)(B). Since
plaintiff obtained her loans solely for the purpose of attending the University of Michigan and the amount of
the loans was clearly tailored [39] to the cost of attendance at the University of Michigan, her loans
were obtained solely to pay qualiﬁed higher education
expenses. Again, see Docket 94, which is defendant’s
motion for summary judgment. I was looking at Exhibit 6-B, which is the afﬁdavit of Pamela Fowler, executive director for the Ofﬁce of Financial Aid at the
University of Michigan. That’s a document that conﬁrms what the cost of attendance at the University of
Michigan was, and it’s clear from looking at the loan
notes that all the loan notes were tied to the amount –
that amount but were an amount slightly less than the
amount set for the cost of attendance.

App. 62
Plaintiff ’s position may be that her loans are,
quote, mixed used loans because she used some of the
loan proceeds for school-sponsored activities or for
other activities, and those activities are not qualiﬁed
educational expenses. The plaintiff ’s argument is defeated by the deﬁnition of qualiﬁed educational expense as deﬁned in the Higher Education Act of 1965,
28 U.S.C., Section 108711. That expression expressly
includes miscellaneous personal expenses. When the
language of a statute is clear on its face, courts are not
required to engage in any additional inquiry into the
meaning of the statute. See United States v. Ron Pair
Enterprises, Inc., 489 U.S. 235, a Supreme Court case
from 1989. If the statute’s language is plain, the sole
function of the courts is to enforce it [40] according to
its terms. See Ron Pair Enterprises quoting Caminetti
v. United States, 242 U.S. 470. The term “miscellaneous” – end of the quote. The term – I’m sorry. The term
“miscellaneous personal expenses” is plain on its face.
Those expenses are expenses a student incurs while
obtaining an education capped by the amount allocated by the school for cost of an education. Since the
relevant statute expressly includes miscellaneous personal expenses as a qualiﬁed educational expense, the
Court rejects plaintiff ’s argument that the use of the
student loan funds for miscellaneous personal expenses makes a loan dischargeable under 523(a)(8)(B).
Plaintiff ﬂatly rejects this Court’s conclusion that
the term “miscellaneous personal expenses” covers the
type of expenses she incurred while attending the University of Michigan. Plaintiff argues that this Court

App. 63
must look at the Internal Revenue Code and directives
to decipher the true meaning of the term. Speciﬁcally,
plaintiff points the Court to IRS Publication 970 entitled “Tax Beneﬁts of Higher Education Beneﬁt” – or of
Higher Education, which was attached to plaintiff ’s response to defendant’s motion for summary judgment
as Exhibit 6-C. Again, the Court is unpersuaded by
plaintiff ’s argument. The publication cited by plaintiff
is an IRS directive to taxpayers regarding what types
of educational expenses may be deducted on a personal
[41] income tax return. Pursuant to that directive, it
appears that a taxpayer can deduct interest paid on
loans taken out for the purpose of paying qualiﬁed education expenses, and qualiﬁed educational expenses
include tuition and fees, room and board, books, supplies, and equipment, and other necessary expenses
such as transportation. See IRS Publication 970 at 17.
That’s at page 17. The directive does not deﬁne personal miscellaneous expenses and has nothing to do
with the cost of attendance of education in the context
of discharging loans in bankruptcy. Even assuming
that this Court agreed that IRS Publication 970 had
some persuasive authority, the Court notes that the
term “necessary” is undeﬁned. Plaintiff has cited no
case law in support of an argument that the IRS ever
disallows the deduction of interest on a student loan
because a portion of an otherwise qualiﬁed student
loan was used for some discretionary personal expenses. Given the lack of authority for plaintiff ’s argument that IRS Publication 970 has some bearing on
the resolution of the issue before this Court, this Court
rejects the argument. Qualiﬁed educational expenses,

App. 64
as deﬁned in 11 U.S.C., Section 523(a)(8)(B), and the
Internal Revenue Code, include the miscellaneous the
personal expenses used by plaintiff while she was at
the University of Michigan. Her qualiﬁed educational
loans are nondischargeable under 523(a)(8)(B).
[42] Plaintiff also argues that because the loan
documents do not include the words, quote, “qualiﬁed
higher education expenses” as an express limitation
on how the proceeds could be spent, she was permitted to spend proceeds on nonqualified education expenses, and, as a result, the loans are not covered by
523(a)(8)(B)’s discharge exception. It is not surprising
that in establishing the purpose to which the Citibank
loan proceeds could be used the parties did not expressly include the words, quote, “qualiﬁed higher education expenses,” end quote. At the time the loans
were made, that term had not been incorporated into
the Bankruptcy Code, and there was no reason for the
parties to have contemplated including that speciﬁc restrictive language into contracts. However, the loans
were structured in a way to ensure that the proceeds
would be used entirely for tuition, books, room, board,
and miscellaneous personal expenses; i.e., expenses
which fell within the university’s determination of the
cost of attendance. Thus, the proceeds of the Citibank
loans were, in fact, used for qualiﬁed higher education
expenses. If the absence of the language, quote, “qualiﬁed higher education expenses” in loan notes was sufﬁcient grounds to take the loans outside of 11 U.S.C.,
Section 523(a)(8)(B), every loan made prior to the enactment of BAPCPA would be dischargeable. There is

App. 65
nothing in the legislative history of BAPCPA or in the
case law to [43] suggest that such a result was contemplated by Congress. 11 U.S.C., Section 523(a)(8)(B), applies to loans made by private lenders both before and
after the enactment of BAPCPA so long as the loan is
a qualiﬁed student loan – qualiﬁed educational loan as
that term is deﬁned by the Internal Revenue Code and
the Higher Education Act.
Plaintiff also argues that there are questions of
fact as to whether her loans are qualiﬁed educational
loans because, one, her notes require her to pay the
cost of education rather than the cost of attendance,
and, two, her loans require her to pay speciﬁc educational expenses rather than miscellaneous personal
expenses, end quote. Plaintiff fails to articulate why
she thinks the difference between the language in her
notes and the deﬁnition of qualiﬁed education loans as
set forth in the Internal Revenue Code and the Higher
Education of 1965 create questions of fact. If there is
any issue arising out of the difference in language, it
is a legal issue as to whether the difference in language is so substantive that plaintiff ’s educational
loans must be considered to be something other than
523(a)(8)(B) qualiﬁed student loans. Plaintiff has
failed to provide any support or explanation as to why
this Court should reach such a conclusion. Plaintiff
completed applications which stated, quote, “You may
borrow up to the full cost of education less any ﬁnancial aid you are receiving,” end quote. Plaintiff [44]
signed the notes, which stated, quote, “I understand
that the proceeds of this loan, if approved, must be

App. 66
used for educational purposes,” end quote, and, quote,
“I understand that the proceeds of this loan are to be
used for speciﬁc educational expenses,” end quote.
Plaintiff acknowledges that she used her educational
loans to pay tuition, room and board, and personal expenses. Those expenses are identical to the expenses
which factor into the cost of attendance as deﬁned by
the Higher Education Act of 1965, speciﬁcally 28
U.S.C., Section 11871, Sections 1 and 2. The fact that
plaintiff ’s notes did not explicitly delineate which expenses could be considered appropriate is immaterial.
For all the reasons discussed above both as a matter of policy and for practical reasons, student loan
lenders are not required – or pre-BAPCPA student
loan lenders were not required to anticipate or deﬁne
speciﬁc personal expenses and draft a loan agreement
to that end. Courts look to the purpose of the loan to
determine whether it is nondischargeable. The fact
that the language in plaintiff ’s notes did not directly
track the language of Section 523(a)(8)(B) and the Internal Revenue Code does not make plaintiff ’s student
loans dischargeable.
Lastly, plaintiff argues that her loans should be
discharged because neither Defendant Arrowood nor
its predecessors in interest, Citibank and Discover, issued [45] plaintiff an IRS Form 1098-E for the years in
which plaintiff paid interest on her student loans.
Form 1098-E is ofﬁcially known as the student loan interest statement. The form is a tax form which student
loan lenders must send to borrowers disclosing how
much interest was paid during the tax year. It allows

App. 67
eligible borrowers to claim a tax deduction for some or
all of the interest paid when ﬁling taxes. Plaintiff asserts that defendant’s failure to provide her with 1098E forms is evidence that defendant never viewed these
loans as student loans. The Court ﬁnds that defendant’s failure to issue 1098-E forms to plaintiff is immaterial to a determination of the dischargeability of
plaintiff ’s student loans. The only issue relevant to this
Court’s decision is whether plaintiff ’s student loans
were qualiﬁed education loans under 11 U.S.C., Section
523(8)(B).
For all of the reasons set forth above, the Court
ﬁnds that the plaintiff ’s loans are qualiﬁed educational loans. The Court notes that even if the issue of
1098-E forms was relevant, private education lenders
are only required to issue the forms upon the receipt of
a completed certiﬁcation from the borrower. See 27
CFR, Section 1650S-e-2. In the present case, plaintiff
has admitted that she never provided Citibank, Discover, or defendant with such certiﬁcation. Thus, defendant’s failure to provide the form says nothing
about how defendant came to these loans.
[46] In conclusion, for all these reasons, the Court
concludes that there are no genuine issues of material
fact regarding plaintiff ’s student loans and ﬁnds that
the loans are qualiﬁed educations pursuant to 11
U.S.C., Section 523(8)(B). The loans are not dischargeable in plaintiff ’s bankruptcy. Defendant’s motion for
summary judgment is granted. Plaintiff ’s motion for
summary judgment is denied. Plaintiff ’s complaint
will be dismissed. The Court will issue its own order. It

App. 68
will just state for the reasons set forth on the record,
the plaintiff ’s motion for summary judgment is denied,
defendant’s motion for summary judgment is granted,
and the complaint is dismissed. Thank you very much.
MR. LEWIS:
MR. HALE:

Thank you, your Honor.
Thank you, your Honor.

(Proceedings concluded at 11:08 a.m.)
[47] INDEX
WITNESSES:
None
EXHIBITS:
None
[Certificate Omitted]

